CERTIFICATE OF WORD COUNT
NO. 19-368, 19-369
Ford Motor Company,
Petitioner(s),
v.
Montana Eighth Judicial District Court, et al.; and Adam Bandemer,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the CENTER FOR AUTO SAFETY
AMICUS AT MERITS STAGE IN SUPPORT OF RESPONDENT(S) contains 4310 words, including the parts of
the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
April 3, 2020

SCP Tracking: Coben-8700 E. Vista Bonita Drive-Cover Dark Green

